BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
Amici Curiae Philadelphia Mayor James Kenney and
Acting Health Commissioner Cheryl Bettigole in
Support of Petitioner in 21-276, Safehouse v.
Department of Justice, et al., was sent via Two Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Two Day Service and e-mail to the following
parties listed below, this 21st day of September, 2021:
Ilana Hope Eisenstein
DLA Piper LLP (US)
1650 Market Street
Suite 5000
Philadelphia, PA 19103
(215) 656-3300
ilana.eisenstein@dlapiper.com
Counsel for Petitioner
Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

I 8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Diana P. Cortes, City Solicitor
Jane L. Istvan
Counsel of Record
Jennifer E. MacNaughton
City of Philadelphia Law Department
1515 Arch Street, 15th Floor
Philadelphia, PA 19102
(215) 686-3000
jane.istvan@phila.gov

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 21, 2021.

Emily ullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive , Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~ ~ d-1 , d'Ocr{
dZJh_ Jj .

Notary Public

/u~

I

V

[seal]

JOHN D. GALLAGHER
Notary Nlflc, State of Ohio
My Commission Expires
r cbruary 14, 2023

.

